Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Interstate Compact on the Placement of
       Children: Implementation




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 1999
                      OEI-02-95-00044
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Office prepared this report under the direction of John I. Molnar, Regional
Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Nancy Harrison, Project Leader                          Alan Levine, Program Specialist

Miriam Gareau

Judy Lin





      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection is to identify the strengths and weaknesses in the implementation of
the Interstate Compact on the Placement of Children.

BACKGROUND

The Administration for Children and Families (ACF) has asked the Office of Inspector General
(OIG) to look at interstate compacts that affect children placed or moved across State lines. The
OIG has completed two other inspections in this area. Interstate Compact on Adoption and
Medical Assistance assesses how membership in this compact affects States’ efforts to protect the
interests of adopted special needs children who move interstate. The Interstate Compact on the
Placement of Children: State Structure and Process describes how States have implemented the
Interstate Compact on the Placement of Children (the Compact); in particular, how States
structure their Compact function, States’ Compact procedures, and the number of children placed
through the Compact. Currently, ACF is interested in the Compact’s strengths and weaknesses.
This inspection addresses these issues.

Sometimes the most suitable placement for a child is out of their own State. The reasons for such
placements include adoptions by a family in another State, placement into foster care out of State,
and reunification with a parent who has moved while the child was in State custody.

The Interstate Compact on the Placement of Children is a contract among the States intended
to ensure that children placed across States lines receive adequate protection and services. The
Compact outlines the steps necessary to place a child out of State. For example, the State the
child is in (the sending State) asks the State in which the child is to be placed (the receiving
State) to conduct a home study to evaluate the suitability of the potential placement. If a
placement is actually made, the receiving State supervises the placement and the sending State
maintains financial responsibility for the child. All States, the District of Columbia, and the U.S.
Virgin Islands are members of the Compact.

We gathered information from three separate sources: compact administrators in the 10 States
with the highest population under age 18, local workers in those States, and other involved
parties. We used consensus within and among the groups as a cross check to confirm our
findings. We also reviewed State policies and procedures with respect to residential placements.

FINDINGS

The Compact Facilitates Interstate Placements

The Compact facilitates interstate placements in four main ways. First, the Compact increases
placement options available for children. Second, the child’s safety is guarded through services


                                         )))))))))))
                                              i
and protections offered by the receiving States. Third, the Compact ensures that the appropriate
laws are followed before a placement is made. Fourth, the Compact has created a network
through which States cooperate in making placements and exchanging information.

States Are Fulfilling Their Obligations Under the Compact

States seem to be meeting the basic requirements of the Compact. States are conducting home
studies, providing for children financially, and supervising the placements.

However, Some Weaknesses Are Acknowledged

Although all ten State compact administrators believe that children are better off because of the
Compact, they also acknowledge there are weaknesses in the Compact’s implementation. State
administrators, local workers, and other involved parties report four main weaknesses: lack of
knowledge about the Compact among judges, attorneys, and caseworkers; placements in violation
of the Compact; the lengthy process; and differing adoption laws among States that may hinder
placements.

The Compact Plays a Smaller Role in Residential Placements

Receiving States do not conduct home studies to assess placement suitability for residential
placements, nor do they supervise residential placements. Documents for these placements
sometimes bypass Compact offices. Further, most States do not have written policies for
residential placements. And lastly, States also define residential care facilities differently.

OPPORTUNITIES FOR IMPROVEMENT

Based on this inspection and our previous study, we conclude that, overall, children are better off
because of the Compact. However, we believe that there is a need to strengthen its
implementation. We offer the following recommendations for those individuals and entities that
have a role in the Compact.

Awareness

We learned that many individuals who work in the child welfare system are still unaware of the
Compact. Clearly, more dissemination of Compact information is needed. We suggest that the
States improve and increase the information about the Compact available to local workers,
judges, attorneys, placement agencies and parents. This can be accomplished through increased
opportunities for training for professionals, circulation of pamphlets among agencies and local
workers, and the creation of a web site that would explain the purpose of the Compact and the
process in simple language. Increased awareness and familiarity with the Compact may help
reduce the number of violations that occur.




                                          )))))))))))
                                               ii
Timeliness

We heard that one of the chief complaints of our respondents is the length of the Compact
process. Border State agreements may be a viable method to reduce the lengthiness of the
Compact process. The Association of Administrators and the States are currently discussing the
implementation of border state agreements. Such agreements, usually between two bordering
States, could allow local workers from one State to enter the other State to complete home
studies or supervision. We encourage the Association and the States to continue these
discussions.

State Level Coordination

We are aware that local workers do not always communicate formally through the State Compact
offices. States' inability to account for all interstate placements noted in our earlier study, The
Interstate Compact on the Placement of Children: State Structure and Process (OEI-95-02-
00041), may in part be due to this failure. It is important that the State Compact offices continue
to be the official contact point between States. We are encouraged that local workers often
communicate directly for matters other than emergencies or problems. This contact is clearly in
the best interest of the children.

Training and Technical Assistance

We believe there is opportunity for ACF to participate in strengthening the implementation of the
Compact. The ACF can make training and technical assistance available to States. Further, ACF
can support the efforts of the States and the Association to increase information dissemination
about the Compact’s purpose, importance and process.

Residential Placements

We recognize that residential placements are treated differently under the Compact and may be a
potential vulnerability. We are continuing to look at the broader area of residential placements.
We also encourage the States and the Association to examine how the Compact handles
placements into residential care facilities.

COMMENTS

We received comments from the Administration for Children and Families (ACF) and from the
American Public Human Services Association (APHSA). They both agree that there is
opportunity for ACF to work with the Compact to provide necessary training. The full text of
these comments can be found in Appendix A.

The ACF plans to work with national resource centers, the Association of Administrators of the
Interstate Compact on the Placement of Children, and the States to determine how it can promote
awareness of the Compact, provide training to State agency staff who implement the Compact,
and support the development of model procedures to help the Compact operate more effectively.


                                         )))))))))))
                                              iii
The APHSA comments include the comments of the Executive Committee of the Association of
Administrators. They strongly endorse the idea of ACF providing assistance to the States to
strengthen the implementation of the Compact as well as training. In addition, they offered
technical comments and we modified the report where appropriate.




                                      )))))))))))
                                           iv
                              TABLE OF CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


Compact Facilitates Interstate Placement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


States are Fulfilling Their Obligations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


Weaknesses Are Acknowledged . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Smaller Role in Residential Placements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDIX

 A: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

                            INTRODUCTION

PURPOSE

The purpose of this inspection is to identify the strengths and weaknesses in the implementation of
the Interstate Compact on the Placement of Children.

BACKGROUND

The Administration for Children and Families (ACF) has asked the Office of Inspector General
(OIG) to look at a number of issues regarding interstate compacts that affect children who are
placed or moved across State lines. The OIG has completed two other inspections in this area.
Interstate Compact on Adoption and Medical Assistance (OEI-02-95-00040) assesses how
membership in the Interstate Compact for Adoption and Medical Assistance affects States’ efforts
to protect the interests of adopted special needs children who move from one State to another.
The Interstate Compact on the Placement of Children: State Structure and Process (OEI-02-95-
00041) describes how States have implemented the Interstate Compact on the Placement of
Children (the Compact); in particular, how States have structured their Compact function, the
States’ Compact procedures, and the number of children who are placed through the Compact.
Currently, the ACF is interested in an evaluation of the Compact’s strengths and weaknesses. This
inspection addresses these issues.

Interstate Placement of Children

Sometimes the most suitable placement for a child is out of their own State. These out of State
placements occur for a variety of reasons, including adoption across State lines, foster care
placement out of State, and reunification with a parent who has moved while the child is in State
custody. No accurate national data exists on the number or type of interstate placements that
occur each year. However, according to experts in the field, the number of children placed across
State lines is increasing.

The Interstate Compact on the Placement of Children

The Interstate Compact on the Placement of Children is a contract among and between States
intended to ensure that children placed across State lines for adoption or for foster care receive
adequate protection and support services. It establishes procedures for placement and compels
the placing agency to maintain responsibility for the child. To participate in the Compact, a State
must enact into law the text of the Compact.

The Compact grew out of work done in the late 1950's when a group of social service
administrators and State legislators informally looked at the problems of placing children out of
State for adoption or foster care. Although importation and exportation statutes regulate the
interstate movement of goods, Federal law did not provide protection for children moved between
States. The group found that a sending State, in the absence of a compact, could not compel the
receiving State to provide protection or support services for a child. In addition, a receiving
State, in the absence of a compact, could not compel a sending State to remain financially

                                         )))))))))))
                                              1
responsible for a child. In response to this group’s findings, the Compact was first drafted in the
New York State Legislature and was adopted by New York in 1960. By 1990, all States, the
District of Columbia, and the U.S. Virgin Islands had joined.

The purpose of the Compact is for the party States to cooperate in the interstate placement of
children so that:
    C the child is placed in a suitable environment;
    C the receiving State has the opportunity to assess the proposed placement;
    C the sending State obtains enough information to evaluate the placement; and
    C the care of the child is promoted through appropriate jurisdictional arrangements.

The Compact outlines the many steps necessary to place a child out of State. For example, the
State the child is in (the sending State) asks the State in which the child is to be placed (the
receiving State) to conduct a home study to evaluate a possible placement. When a placement is
finally made, the receiving State must continue to supervise the placement while the sending State
provides financial support.

The Compact has jurisdiction over the following types of interstate placements: placement
preliminary to an adoption; placement into foster care; placement with parents and relatives when
a parent or relative is not making the placement; and placements made into group homes, child
care institutions, and residential treatment facilities. The Compact does not have jurisdiction over
the following placements: placements into schools, medical and mental facilities, and placements
made by a child’s parent, stepparent, grandparent, adult sister or brother, adult aunt or uncle, or
non-agency guardian with any such relative or non-agency guardian.

For the purposes of this report, placements for adoption include those made by public agencies,
private agencies, attorneys, and birth parents. Foster care placements include placements into
paid foster homes, into homes of unpaid relatives, and into homes of formerly non-custodial
parents. Residential placements include placements into residential treatment centers, group
homes, and child care institutions.

The Compact is managed in each State by a compact administrator. In 1974, the compact
administrators formed the Association of Administrators of the Interstate Compact on the
Placement of Children (the Association) to provide technical and support services to its members.
The American Public Human Services Association (APHSA), formerly the American Public
Welfare Association, acts as the Secretariat to the Association of Administrators. The APHSA is
a non-profit organization that represents a variety of State interests in the field of health and
human services. The Secretariat is funded through dues paid by member States. The ACF has
not funded the Association since 1985.




                                          )))))))))))
                                               2
Federal Role in Interstate Placements

As the Federal agency with formal responsibility for supporting State child welfare activities, the
Administration for Children and Families (ACF) administers the Federal programs that fund State
foster care and adoption initiatives.

The Federal funding of State foster care and adoption is authorized under the Social Security Act.
Title IV-E of the Act reimburses a portion of State expenditure for foster care maintenance
payments for eligible children and adoption assistance for eligible special needs children. Federal
reimbursement is also available for certain administrative and training costs associated with both
programs. Title IV-B, as amended by the Adoption and Safe Families Act of 1997, provides
funding for ‘adoption promotion and support services’ and ‘time-limited reunification services,’
along with family preservation and support. In order to receive a grant under Title IV-B, States
are required to provide specific protections. These protections include developing a case plan for
each child in foster care and conducting a court or administrative review of the status of each
child at least every 6 months. In addition, a hearing must be held within 12 months of the child’s
entry into foster care by a court or court-approved administrative body to determine the
permanency plan of each child.


States’ Implementation of the Compact

Fifty of the States have centralized their Compact function. This means they have a Compact
office at the State level that handles all Compact cases coming into and going out of the State.
The only two decentralized States handle all Compact cases at the county level.

The Compact outlines the many steps necessary to place a child out of State. For example, a
caseworker finds a potential placement for a child with the child’s grandmother out of State. The
worker completes a placement request and sends it to her Compact office (the sending State).
They ask the State in which the grandmother lives (the receiving State) to conduct a home study
to evaluate the possible placement. The receiving State sends the request to a worker in the
grandmother’s local jurisdiction. The worker completes the home study and makes a
recommendation as to whether the placement should be approved. He sends this information to
his Compact office (the receiving State). The Compact office, based on information from the
home study, decides to approve the placement or not. The office sends the packet to the sending
State’s Compact office. They forward the packet to the child’s caseworker. She reviews the
information and, if the placement has been approved by the receiving State, she makes the final
decision to place the child or not. Assuming she decides to make the placement, she arranges for
the child’s transportation and at the same time, notifies her Compact office of the placement. The
office contacts the receiving State’s Compact office, who forwards the decision to the worker in
the grandmother’s jurisdiction. He then begins to supervise the placement with visits to the
grandmother’s home.




                                         )))))))))))
                                              3
METHODOLOGY

This inspection is based on information gathered from three separate sources: compact
administrators in the 10 States with the highest population under age 18, local workers in those
States, and other involved parties. We selected these three groups for their different perspectives
on the Compact. In our analysis we paid special attention to consensus within and among the
groups. We used consensus as a cross check to confirm our findings. For example, we analyzed
State administrators’ viewpoints as both sending and receiving States and we compared their
comments with those we received from local workers and national experts. We also reviewed
State policies and procedures with respect to residential placements. We did not review or
compare individual case files of children placed across State lines.

Compact Administrators

We conducted interviews with the compact administrator or a designated representative from
each of the ten States with the highest population under 18 years of age (CA, FL, GA, IL, MI,
NJ, NY, OH, PA, TX). Combined, these States represent more than 50 percent of the national
population under 18 in 1997. We interviewed each State as both a sending State and a receiving
State. Questions focused on their experiences and opinions of the Compact and of other States.
We asked about the home studies, supervision, and financial support provided to children placed
across State lines. We also discussed the Compact’s strengths and weaknesses and their
experiences with residential placements.

We analyzed the State responses in many ways, taking into account when the administrators were
speaking as sending States and when they were speaking as receiving States. We considered not
only what they said happens in their own State, but what they have seen in other States. A
consensus among these different points of view supported our findings. We compared the
information provided by the administrators to information provided by local workers and other
involved parties.

Local Workers

We conducted interviews with 19 local workers who have participated in the Compact process
from the ten selected States. We asked them about their experiences placing and receiving
children interstate, as well as their opinions on the Compact’s effectiveness. At least one local
worker from each State was interviewed. Additional workers were interviewed if a State had
separate units for sending and receiving or for home studies and supervision. Up to three workers
were interviewed in some States. We looked at the local workers’ responses as a whole and we
compared their responses to the responses of their respective State administrators. We also
compared the information they provided to information from the group of State administrators
and other involved parties.




                                         )))))))))))
                                              4
Other Involved Parties

We also conducted interviews with individuals who have had direct experience dealing with the
Compact. These discussions included two family court judges, three attorneys, two adoption
agency directors, and three children’s advocates and focused on the strengths and weaknesses of
the Compact. We compared their responses within and among the different professions. We also
compared their responses to responses of the State administrators and local workers.

Policies and Procedures

We reviewed the written policies and procedures submitted by 43 of the 52 Compact States for
information concerning residential placements.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                        )))))))))))
                                             5
                                    FINDINGS

The Compact Facilitates Interstate Placements

The Compact facilitates adoption and foster care placements in four main ways, according to
compact administrators, local workers, and other involved parties. First, the Compact increases
placement options available for children. This is especially important for children with special
needs who may only be able to find necessary services outside of their State. One local worker
notes that the Compact in effect makes the resources of the other 49 States available in the search
for a home for these vulnerable children. Also, the best place for some children may be with a
close relative who happens to live in another State. The Compact makes these placements
possible. Second, the child’s safety is guarded through services and protections offered by the
receiving States, such as home studies and post-placement supervision. Third, the Compact
ensures that the appropriate laws are followed before a placement is made. Therefore, disruptions
of placements based on legal reasons may be avoided. Fourth, the Compact has created a
network through which States communicate and cooperate in making placements and exchanging
information about placement resources and States’ laws. Moreover, all ten State compact
administrators believe that children are better off because of the Compact. Almost all of the local
workers agree and are satisfied with the Compact.

States Are Fulfilling Their Obligations Under the Compact

States seem to be meeting the basic requirements of the Compact meant to safeguard children
placed interstate. These requirements include conducting home studies to evaluate possible
placements, providing for the child financially, and supervising the placement.

States Are Conducting Home Studies

States are conducting home studies before Compact placements are made. In addition, most
States conduct a criminal and/or child abuse check on prospective families. Nine of the ten State
compact administrators, as well as many local workers, are satisfied with the quality of the home
studies. One administrator is concerned, however, that home studies have no national standards
so workers receive different information of varying quality with each State.

Local workers report it takes an average of one month to complete a home study. State compact
administrators report waiting an average of three to four months for the entire home study
process to be completed, which is similar to the average three month wait States report for
placements made within their own State.

Eight of the ten State compact administrators are satisfied with Regulation 7 of the Compact,
which outlines the procedures to be used in urgent cases. In these cases, the receiving State must
respond to the sending State’s request for placement within 20 business days, as opposed to the
recommended 30 business days in other cases. One administrator who is not satisfied reports that
Regulation 7 is vague about which cases are eligible for its use. The other administrator says that
foster care and adoption home studies cannot be completed in 20 days because of required

                                         )))))))))))
                                              6
background checks. Some local workers agree, saying they find it difficult to meet the tight time
frame.

States Are Fulfilling Their Financial Obligations

States are fulfilling their Compact financial obligations to remain financially responsible for
children they send out of State. In fact, compact administrators report that sending States rarely
fail to meet their obligations. When a failure occurs, it is usually due to a misunderstanding, in
part, of what services will be paid for by the sending State. Receiving States say they contact the
compact administrator in the sending State to resolve these problems.

Placements Are Being Supervised

According to administrators, placements are being supervised. Local workers in receiving States
are supervising placements and writing progress reports for typical interstate placements. Overall,
most State compact administrators and local workers are satisfied with the quality of progress
reports. The reports are generally forwarded to the sending State quarterly, but a few
administrators and local workers say they have to request reports, otherwise they are not sent.
The Compact requires that reports go from the local worker in the receiving State to the local
worker in the sending State through the two State offices. A number of compact administrators
and local workers say that this process is not always followed. Instead, reports are sometimes
sent directly from one worker to another without involving the two State offices.

In addition to the reports, all local workers say they usually communicate directly with the other
State’s worker on routine matters. This communication between the two local workers
establishes a relationship which may enhance the well-being of the child. Ultimately, the State
Compact offices are responsible for the placement.

However, Some Weaknesses Are Acknowledged

Although all ten State compact administrators believe that children are better off because of the
Compact, they also acknowledge there are weaknesses in the Compact’s implementation. In fact,
six administrators are not completely satisfied with the way the Compact is working and believe
that it needs improvement. State, local, and other involved parties report four main weaknesses:
lack of knowledge about the Compact, violations of the Compact, timeliness of placement
documents, and differing adoption laws.

Some Are Unaware of the Compact

Some respondents feel there is a lack of knowledge about the Compact among judges, attorneys,
and caseworkers. Both judges we contacted stress the need for more education about the
Compact among their peers, specifically with regard to Regulation 7 of the Compact. One judge
reports that attorneys also need more training about the Compact. An attorney concurs and
believes some of his peers are not aware of the Compact. In addition, a few State compact
administrators and involved parties believe that local workers may be reluctant to use the


                                         )))))))))))
                                              7
Compact because they do not understand it or do not know about it. Only half of the local
workers say that they have received any training on Compact procedures.

Violations Occur and May Lead to Placement Problems

All ten State compact administrators believe placements occur in violation of the Compact,
although they are unsure of the numbers involved. One reason States are unable to provide
numbers is because violations usually go unnoticed unless a problem occurs and a public agency is
notified.

State compact administrators and other involved parties report that Compact violations can occur
in several instances. According to the State compact administrators, the most frequent example
of this is where a judge disregards the Compact when making a placement. Other reported
instances include: local workers’ ignorance of the Compact, interstate visitations that eventually
become permanent placements, and placements by individuals who are unaware of the Compact
or choose to ignore it. One administrator feels there is an unwillingness on the part of agencies
and courts to abide by the laws and wait for the process to be completed. All the administrators
believe these violations are a problem because children placed outside of the Compact are not
assured the same services and legal protection as those who are placed through the Compact.

The majority of local workers know of situations where violations have occurred. They often cite
agencies that place a child into their jurisdiction without notification or a home study request.
They only become aware of a violation when they are asked to conduct a post-placement home
study. Unlike the States, just a few local workers feel these violations are a problem because
children are more vulnerable without the protection of the Compact. Those who feel violations
are not a problem say violations are not major or widespread.

Four State compact administrators and some other involved parties believe a major problem with
the Compact is that it is not enforceable. Under Article IV of the Compact, any violation “shall
constitute full and sufficient grounds for the suspension or revocation of any license, permit, or
other legal authorization held by the sending agency which empowers or allows it to place, or
care, for children.” Although these sanctions are available, respondents say they are not used.

Many Believe the Process is Too Lengthy

Almost half of all respondents feel that the Compact process is lengthy. Local workers say they
wait too many weeks for home studies and supervision reports from the receiving States. They
also complain that procedures in their own Compact offices contribute to delays. One local
worker recalls a time when her Compact office sent back her documents because she had not
made triplicate copies. She says that the case was held up for a week. A few State compact
administrators note there is a reluctance among workers to use the Compact, in part because of
the time delays. One judge believes that the delays were worse before the enactment of
Regulation 7 of the Compact, but now the time frames are improving.




                                         )))))))))))
                                              8
Differing State Adoption Laws May Hinder Placements

A few administrators report that placing a child for adoption in another State can be difficult when
the two States’ adoption laws differ. The two adoption attorneys are concerned that conflicting
State adoption laws not only make placement difficult, but also make the placement vulnerable to
disruption at a later date. They feel that the adoption may be vulnerable because it is impossible
to comply with both the sending and receiving States’ laws when the laws conflict. One attorney
believes the Compact has great potential and could be the central entity to resolve conflicts of
laws between States.

The Compact Plays a Smaller Role in Residential Placements

Residential Placements Vary Widely Among States

Some States have no or few residential facilities and must use residential facilities in other States.
As a result, States with facilities may receive very large numbers of residential placements from
other States. As reported in our previous inspection, one of the ten States reports receiving in
excess of 700 children each in 1997 into residential placements. This is several hundred more
than other States.

States Do Not Conduct Home Studies for Residential Placements

Although the Compact covers foster care, adoption, and residential placements, it plays a smaller
role in residential than in the other interstate placements. States do not conduct home studies to
assess placement suitability for children placed through the Compact into a residential facility. It
appears that States place children only in licensed facilities, and State compact administrators
report they recognize the licensing so home studies are not conducted. One State, however,
reports it sends its own licensing staff into potential receiving States to verify the licensing and
standards of residential facilities.

Receiving States Do Not Supervise Residential Placements

Receiving States do not supervise interstate residential placements. As noted earlier, in a typical
interstate foster care placement, supervision reports are generally completed quarterly by a local
worker in the receiving State. This is not the case for placements into residential facilities. Over
half of the State compact administrators say that they receive supervision reports on children
placed in residential facilities. However, these reports are not completed by the receiving State.
The staff from the residential facilities completes the reports. A few States express concern with
supervision reports that are completed by facility staff. As one State stresses, it may be hard for
employees to be objective.

It is reported that children placed in-State have more supervision than those placed out of State.
For instance, when a facility is in a child’s home State, his own local worker would check on the
child. This would involve visiting and calling the facility to ask how the child is doing. In



                                           )))))))))))
                                                9
contrast, no local workers, either from the sending or receiving State, visit out of State children in
facilities.

Documents for these Placements Sometimes Bypass Compact Offices

Usually documents for interstate placements flow from the local worker in one State to the local
worker in the other State through the two State offices. Documents for residential placements,
however, sometimes does not follow the same path. Four of the ten State compact administrators
report they do not receive residential supervision reports regularly from their own State facilities.
Instead, the reports are sent directly to the local sending agencies.

Most States Do Not have Written Policies for Residential Placements

Although in practice residential placements are treated differently, State Compact policies make
no distinction between residential and other placements. In a review of policies from 43 of the 52
Compact States we found the majority of State policies do not have a section dedicated to
residential placements describing how these types of placements should be handled. In fact, many
State policies fail to note any difference in procedures for residential placements. Six of the 52
States, however, have detailed instructions for residential placements into and out of their State.
These detailed policies include instructions for approving residential placements, verifying the
facility acceptance of a child, and establishing that no appropriate in-State placement is available.
Some State policies indicate that it is the responsibility of the sending agent to monitor the
placement via quarterly supervision reports prepared by the facility staff.

States Define Residential Care Facilities Differently

The Compact does not cover “any institution caring for the mentally ill, mentally defective or
epileptic or any institution primarily educational in character, and any hospital or other medical
facility.” States appear to interpret this law differently. Some States use the license of the
institution to determine whether it falls under the Compact. For example, if an institution has a
child-care license, it is covered by the Compact, but if an institution has a medical-only license, it
is not covered. However, other States consider the services offered by the institution rather than
the license as the basis for inclusion in the Compact. For example, one State’s policy states that
“the type of license, if any, held by an institution is evidence of its character, but whether an
institution is either generally exempt from the need to comply with the Interstate Compact on the
Placement of Children or exempt in a particular instance is to be determined by the services it
actually provides or offers to provide.”

Differences in State definitions may make it difficult for sending States to determine whether a
facility is a child care institution or detention center. This may become an issue for the sending
State when a child is IV-E eligible because detention centers are not eligible to receive IV-E
funding.




                                           )))))))))))
                                                10
              OPPORTUNITIES FOR IMPROVEMENT

Based on this inspection and our previous study, we conclude that, overall, children are better off
because of the Compact. However, we believe that there is a need to strengthen its
implementation. We offer the following recommendations for those individuals and entities that
have a role in the Compact.

Awareness

We learned that many individuals who work in the child welfare system are still unaware of the
Compact. Clearly, more dissemination of Compact information is needed. We suggest that the
States improve and increase the information about the Compact available to local workers,
judges, attorneys, placement agencies and parents. This can be accomplished through increased
opportunities for training for professionals, circulation of pamphlets among agencies and local
workers, and the creation of a web site that would explain the purpose of the Compact and the
process in simple language. Increased awareness and familiarity with the Compact may help
reduce the number of violations that occur.

Timeliness

We heard that one of the chief complaints of our respondents is the length of the Compact
process. Border State agreements may be a viable method to reduce the lengthiness of the
Compact process. The Association of Administrators and the States are currently discussing the
implementation of border state agreements. Such agreements, usually between two bordering
States, could allow local workers from one State to enter the other State to complete home
studies or supervision. We encourage the Association and the States to continue these
discussions.

State Level Coordination

We are aware that local workers do not always communicate formally through the State Compact
offices. States' inability to account for all interstate placements noted in our earlier study, The
Interstate Compact on the Placement of Children: State Structure and Process (OEI-95-02-
00041), may in part be due to this failure. It is important that the State Compact offices continue
to be the official contact point between States. We are encouraged that local workers often
communicate directly for matters other than emergencies or problems. This contact is clearly in
the best interest of the children.

Training and Technical Assistance

We believe there is opportunity for ACF to participate in strengthening the implementation of the
Compact. The ACF can make training and technical assistance available to States. Further, ACF
can support the efforts of the States and the Association to increase information dissemination
about the Compact’s purpose, importance and process.


                                         )))))))))))
                                              11
Residential Placements

We recognize that residential placements are treated differently under the Compact and may be a
potential vulnerability. We are continuing to look at the broader area of residential placements.
We also encourage the States and the Association to examine how the Compact handles
placements into residential care facilities.

COMMENTS

We received comments from the Administration for Children and Families (ACF) and from the
American Public Human Services Association (APHSA). They both agree that there is
opportunity for ACF to work with the Compact to provide necessary training. The full text of
these comments can be found in Appendix A.

The ACF plans to work with national resource centers, the Association of Administrators of the
Interstate Compact on the Placement of Children, and the States to determine how it can promote
awareness of the Compact, provide training to State agency staff who implement the Compact,
and support the development of model procedures to help the Compact operate more effectively.

The APHSA comments include the comments of the Executive Committee of the Association of
Administrators. They strongly endorse the idea of ACF providing assistance to the States to
strengthen the implementation of the Compact as well as training. In addition, they offered
technical comments and we modified the report where appropriate.




                                         )))))))))))
                                              12
APPENDIX A

  COMMENTS




  )))))))))))
      A - 1

)))))))))))
    A - 2

)))))))))))
    A - 3

)))))))))))
    A - 4

)))))))))))
    A - 5

)))))))))))
    A - 6

